                          NATIONAL SCIENCE FOUNDATION
                                 1800 G STREET,N.W:
                               WASHINGTON,D.C. 20550




         OFFICE OF
    INSPECTORGENERAL




               -
MEMORANDUM

     DATE:      December 2, 1992
REPLY TO
 ATTN OF:                          9!-
                                   zcla Agent, Investigations Unit (IU)
    THRU:               OF-
        TO:
 SUBJECT:
                File
                Close-out MemorandumIq(0q6al


We received allegations stating that ,                       former
employee, violated conflicts of interest rules in regards to his
work on an
                                                                   -
                                                        contract during




                                                           -
the sprin                                               thority of the
lnspe&tor ~ e n e r a lAct of 1978, as amended, we investigated the
allegations to determine whether                   violated 18 U.S.C. §
208 and 209, and NSF regul.ation45 C . F . R . § 683.31.




that referred1-tot
The allegations we received relate to
received $2700 in compensation. Under the contract,
                                                    work on an
contract from May 21, 1990 through July 20, 1990, for which he
agreed to analyze questions from two surveys conducted by
in 1986 and 1988. The 1986 s u r v e y was funded under
1985 NSF grant, "A New Agenda for Science".              worked on
                                                                  -
 that grant while employed as a        n     . The 1988-
 survey was not funded by N S F .                    participated
 substantively in conducting the 1988 suAey for -on       his own
 time .
 In response to the allegations, we interviewed
 October 19, 1992, and again on October 29, 1992.
 19, 1992                          stated that he sought advice from
hrll) and                         of the Office of General Counsel
  (OGC) about entering into a similar contract six months prior to
 entering into the OTA contract in the spring of 1990.
 and- .
 NSF resources.
                   told
                        a            that he could perform outsid!
 contract work as long as he dl so on his own time without using
                             stated that he performed all work on the




                   -
contract     em-no             without the use of NSF resources.
a l s o sought advice from an-contracts                           9F
                                                    officer about t e
 matter, and was told that it was alright for him to perform the




                                                                   -
 outside contract work for-.
 On November 24, 1992, we met with                          of OGC and
 discussed possible violations of 18 U.S.C. § 208          209, and 45
 C.F.R.  § 683.31.           stated that in order for there to be a
 violation of 18 U.S.C.        208, there must be a direct and
 predictable link between              participation in the NSF 1985
 grant, "A New Agenda f o
                        r
                        -
                        a
                        n
                        d                  his work on the 1990
 contract. We found no direct or predictable link between the two,
 and thus determined there was no violation.                    further
 stated that in order for there to be a violation of 18 U.S.C. § 209
 or 45 C.F.R. § 683.31,              work on the c o n t r a c t in the.
 1990 would have to y
                    l
                    -
                    e
                    v
                    a
                    h                  related to his work at NSF at
 that time. We found no direct relation between the two, and thus
 determined there was no violation.
 Lastly, we addressed the issue of whether
 December 1, 1992 conversation with h     i
                                             1.1
 actions, created the appearance of a conf ict of interest.
                                               m
                                                         throughIn   a
                                                                   his
                                                    , stated that he
 separated the work on the          surveys from his work at N S F and
 did not consider an appearance problem. We advised him that in any
 future employment with the federal government, he should seek
 specific advice regarding any outside contract work to avoid even
 the appearance of wrongdoing.
Overall, we found no evidence indicating that-           violated
any of the conflicts statutes or regulations, although we
acknowledge that an appearance of conflict of interest may have
existed. We have counseled-bout                avoiding conflicts
problems in the future and have determined that no further
investigative action is necessary.     This case is accordingly
closed.
                                 Case No: I91100022                               October 30, 1991
                                 Subject : Close-out Memo

                             Our investigation found only three individuals who recently
                             received chain letters at NSF. Two of the three individuals had
                             received the chain letters through the inter-office mail system.
                             There did not appear to be a widespread circulation of chain
                             letters at NSF or any extensive abuse of the inter-office mail
-   .   -   -   --   .   -   syKt_ememt o -circulate-__chain
                             -                                                      - ar_e_-~o~further
                                                          -1 e_tters,- _ __ - There-_               _ _-- _--
                             identifiable leads at this time.         This case is accordingly
